BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Petition for a Writ of Certiorari in
CHS-Glenwell Inc., et al. v. Ohio Department of
Medicaid, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 16th day of July, 2021:
Rebecca L. Thomas
Assistant Attorney General
30 East Broad Street, 26th Floor
Columbus, Ohio 43215
(614) 644-8830
rebecca.thomas@ohioattorneygeneral.gov

Counsel for Respondent
Geoffrey E. Webster
Counsel of Record
Webster & Associates Co., LPA
1 7 South High Street, Suite 770
Columbus, Ohio 43215
(614) 461-1156
gewebster@gewebster.com

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 14, 2021.

Amy T r i p l e t t ~
Becker G a l l a g ~ s h i n g Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ 11.,

Notarrtb~ Pj.
[seal]

aOJ (

Ju~

